                                      SOCIAL SECURITY
MEMORANDUM

Date:      February 12, 2003                                       Refer To:

To:        Beatrice Disman
           Regional Commissioner
            for New York

From:      Assistant Inspector General
            for Audit

Subject:   Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
           Determination Program (A-06-02-22072)

           The attached final report presents the results of our audit. Our objectives were to
           determine for Fiscal Years 1998 through 2000 whether (1) costs claimed by the
           Puerto Rico Disability Determination Program (PR-DDP) on the State Agency Report of
           Obligations for Social Security Administration (SSA) Disability Insurance Program were
           allowable and properly allocated; (2) the aggregate of SSA funds requested and
           received agreed with total expenditures; and (3) internal controls for accounting and
           reporting administrative costs and requesting SSA funds were adequate. We also
           reviewed the status of audit findings reported for the PR-DDP by Deloitte & Touche LLP
           in its Single Audit Reports for Fiscal Years 1997 through 1999.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me at (410) 965-9700.




                                                         Steven L. Schaeffer

           Attachment

           cc:
           Yolanda Zayas, MSW, Secretary, Department of the Family
           Nilda Muñoz Acosta, Executive Director, Disability Determination Program
           Candace Skurnik
           Lenore Carlson
           Anthony DiNoto
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED
    BY THE COMMONWEALTH OF
           PUERTO RICO
    DISABILITY DETERMINATION
            PROGRAM

   February 2003   A-06-02-22072




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVES
Our objectives were to (1) determine whether costs claimed were allowable and
properly allocated, (2) reconcile funds drawn down with claimed costs, and (3) evaluate
internal controls over the accounting and reporting of administrative costs. We also
determined whether the Puerto Rico Disability Determination Program (PR-DDP) took
corrective action on findings reported in the Fiscal Year (FY) 1997 through 1999 Single
Audit Reports.

BACKGROUND

Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance Program are performed by Disability Determination Services (DDS) in each
State according to Federal regulations. In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase consultative medical examinations
to supplement evidence obtained from the claimants’ physicians or other treating
sources. SSA pays the DDS for all necessary expenditures.

RESULTS OF REVIEW
Costs the PR-DDP claimed on the State Agency Report of Obligations for Social
Security Administration Disability Insurance Program (Form SSA-4513) for FYs 1998
through 2000 were generally allowable and allocable. Additionally, the aggregate of
SSA funds requested and received did not exceed total expenditures for FYs 1998
through 2000. However, the PR-DDP overstated obligations it reported to SSA by
$89,084 in direct costs and $13,223 in indirect costs. The PR-DDP also overstated
other unliquidated obligations, totaling $100,000 from October 1997 through
September 2000. Further, PR-DDP could have avoided paying $482,539 in overtime
costs had it complied with State policy. We noted certain internal control weaknesses
involving the accounting for and reporting of administrative costs and noncompliance
with several regulations and policies. We also identified single audit findings for which
PR-DDP had not taken appropriate corrective action.

CONCLUSIONS AND RECOMMENDATIONS
Costs the PR-DDP claimed were generally allowable and allocable, and SSA funds
requested and received did not exceed total expenditures for each FY. However, we
found internal control deficiencies with accounting and reporting of administrative costs
that resulted in program overcharges. We recommend that SSA recover unallowable



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                         i
cost disbursements and deobligate other unliquidated obligations. Additionally, we
make a number of recommendations to improve internal controls.

AGENCY COMMENTS
SSA agreed with all of the conclusions and recommendations in the draft report except
for recommendation number 2. See Appendix C for the full text of SSA’s comments.

OIG RESPONSE
We consider SSA’s response as adequate and, accordingly, deleted recommendation
number 2 from the report.




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                     ii
                                                          Table of Contents
                                                                                                               Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

  Unallowable Costs................................................................................................4

  Fiscal Year Payments...........................................................................................5

  Accounting Processes ..........................................................................................5

  Unliquidated Obligations.......................................................................................6

  Cash Management ...............................................................................................7

  Compensatory Time .............................................................................................8

  Classification of Direct and Indirect Costs ............................................................9

  Consultative Examination Authorization Process and Fee Schedules................10

  Unresolved Single Audit Findings.......................................................................10

CONCLUSIONS AND RECOMMENDATIONS.....................................................12

APPENDICES

APPENDIX A – Single Audit Findings

APPENDIX B – Questioned Costs

APPENDIX C – Agency Comments

APPENDIX D – OIG Contact and Staff Acknowledgments




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)
                                                                  Acronyms
ASAP                 Automated Standard Application for Payments

CE                   Consultative Examination

CMIA                 Cash Management Improvement Act

DDS                  Disability Determination Services

DI                   Disability Insurance

Form SSA-4513        State Agency Report of Obligations for SSA Disability Programs

FY                   Fiscal Year

OMB                  Office of Management and Budget

POMS                 Program Operations Manual System

PPWY                 Productivity Per Work-Year

PR-DDP               Puerto Rico Disability Determination Program

PR-DF                Puerto Rico Department of Family

SSA                  Social Security Administration

Treasury             Department of the Treasury




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)
                                                                      Introduction
OBJECTIVES

Our objectives were to determine for Fiscal Years (FY) 1998 through 2000 whether

·     costs claimed by the Puerto Rico Disability Determination Program (PR-DDP) on the
      State Agency Report of Obligations for Social Security Administration Disability
      Insurance Program (Form SSA-4513), were allowable and properly allocated;

·     the aggregate of the Social Security Administration (SSA) funds requested and
      received agreed with total expenditures; and

·     internal controls for accounting and reporting of administrative costs and requesting
      SSA funds were adequate.

We also reviewed the status of audit findings reported for the PR-DDP by
Deloitte & Touche LLP in its Single Audit Reports for FYs 1997 through 1999. The New
York Regional Commissioner requested this audit because of significant deficiencies
reported by Deloitte & Touche LLP in the Single Audit Reports.

BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act. The program provides a benefit to wage earners and their families in the
event the wage earner becomes disabled. SSA is primarily responsible for
implementing the general policies governing the development of disability claims under
the DI program. Disability determinations under the DI program are performed by each
State according to Federal regulations.1

In carrying out its obligation, the applicable State agency is responsible for determining
claimants’ disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, SSA authorizes
the State agency to purchase medical examinations, x-rays and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources. SSA pays the State agency for all necessary program costs.
Each year, SSA approves the budget for the State agency. Once approved, the State
agency withdraws Federal funds from the Department of the Treasury’s (Treasury)

1
    “State” is used throughout our report to mean any of the 50 States of the United States, the District of
    Columbia, the Commonwealth of Puerto Rico, any territory or possession of the United States, or any
    agency or instrumentality of a State exclusive of local governments. Supplemental Security Income is
    not available to residents of Puerto Rico. Accordingly, the PR-DDP only makes disability determinations
    for applicants eligible under title II of the Social Security Act, or the Disability Insurance program.



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                       1
Automated Standard Application for Payments (ASAP) System to meet its immediate
program cash needs. Requests for cash from Treasury to pay for program costs are to
be made in accordance with Federal regulations2 and intergovernmental agreements
entered into by the Treasury and the States under the authority of the Cash
Management Improvement Act (CMIA).3 Office of Management and Budget (OMB)
Circular A-87, Cost Principles for State, Local and Indian Tribal Governments,
establishes principles and standards for determining costs for Federal awards carried
out through grants, cost-reimbursement contracts, and other agreements with State and
local governments and federally-recognized Indian tribal governments. At the end of
each quarter, the State agency submits a Form SSA-4513 to SSA to account for total
disbursements and unliquidated obligations. The sum of total disbursements and
unliquidated obligations is reflected as total obligations.

The Puerto Rico Department of Family (PR-DF) is PR-DDP’s parent agency. Both
PR-DF and PR-DDP maintain accounting records of PR-DDP costs. PR-DDP
completes and submits the SSA-4513 to SSA. PR-DF prepares the requests to transfer
cash from Treasury to the State bank. Indirect costs are determined based on rates
negotiated and approved by the Department of Health and Human Services. As of
December 30, 2001, the SSA obligational authority and the related total program
obligations reported by PR-DDP on the SSA-4513s were as follows.

        Reporting Item                        FY 1998           FY 1999           FY 2000
        Obligational Authority             $12,438,289       $13,130,798       $13,680,250
        Disbursements
         Personnel                           5,897,221         6,061,793          6,457,214
         Medical                             3,776,431         4,030,399          4,090,922
         Indirect Costs                      1,310,286         1,340,602          1,531,467
         Other                               1,454,351         1,523,188          1,462,800
        Total Disbursements                 12,438,289        12,955,982         13,542,403
        Unliquidated Obligations
         Other                                         0                0           100,000
         Indirect Costs                                0          163,131             2,820
        Total Unliquidated
                                                                  163,131           102,820
        Obligations
        Total Obligations                   12,438,289        13,119,113         13,645,223
        Obligational Authorization
                                                      $0          $11,685           $35,027
        Balance




2
    31 C.F.R. §§ 205.1-205.35 (2001).
3
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453 (amending 31 U.S.C. §§ 6501,
    6503).


Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                             2
SCOPE AND METHODOLOGY

We obtained sufficient evidence to determine whether PR-DDP’s financial transactions
were allowable under OMB Circular A-87 and appropriate, as defined by SSA's Program
Operations Manual System (POMS). Furthermore, we

·   reviewed applicable Federal regulations and pertinent parts of POMS DI 39500,
    DDS Fiscal and Administrative Management;

·   identified and tested internal controls regarding accounting and financial reporting
    and cash management activities;

·   documented PR-DDP’s general policies and procedures;

·   interviewed PR-DDP personnel, Puerto Rico State Auditors, PR-DF personnel, and
    SSA staff of the New York Regional Office;

·   reviewed the status of audit findings reported in the Single Audit Reports for
    FYs 1997 through 1999 issued by Deloitte & Touche LLP (Appendix A);

·   requested supporting documentation, as appropriate for the findings reported in the
    Single Audit Reports, and discussed the audit findings with Deloitte & Touche LLP
    auditors;

·   examined administrative expenditures (personnel, medical service, indirect and all
    other nonpersonnel costs) claimed by PR-DDP for the period October 1, 1997
    through September 30, 2000;

·   compared the official State accounting records to the administrative costs reported
    by PR-DDP to SSA on the SSA-4513 for the period October 1, 1997 through
    September 30, 2000; and

·   compared the amount of SSA funds requested and received for program operations
    to the allowable expenditures reported on the SSA-4513s.

We conducted our field work from March through May 2002 at PR-DDP in San Juan,
Puerto Rico. The entity audited was the Office of Disability within the Office of the
Deputy Commissioner for Disability and Income Security Programs. We conducted this
audit in accordance with generally accepted government auditing standards.




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                        3
                                                    Results of Review
The PR-DDP overstated obligations it reported to SSA by $89,084 in direct costs and
$13,223 in indirect costs. The PR-DDP also overstated other unliquidated obligations,
totaling $100,000, during the period October 1997 through September 2000. Further,
PR-DDP could have avoided paying $482,539 in overtime costs had it complied with
State policy. The aggregate of SSA funds requested and received did not exceed total
expenditures for each FY; however, during each quarter of each FY, the parent
agency’s disbursements for the PR-DDP program consistently exceeded the amount of
SSA funds requested. We also identified internal control deficiencies with the
accounting and reporting of administrative costs that resulted in overstated obligations
and noted that PR-DDP did not comply with certain policies.

UNALLOWABLE COSTS
For the period October 1997 through September 2000, PR-DDP claimed $89,084 in
unallowable direct costs and $13,223 in unallowable indirect costs. As shown in the
following table, the unallowable direct costs occurred because PR-DDP used incorrect
hourly rates to reimburse some medical consultants, made mathematical mistakes
when posting expenditures to its manual accounting records, and used estimated
payroll expenditures instead of actual expenditures.

                 PR-DDP Unallowable Disbursements by Fiscal Year
 Cost Category                      FY Affected     Amount               Cause
 Unallowable Direct Cost
 Disbursements
 Medical Consultants (payroll)         1998            $416     Used Wrong Hourly Rate
 Supplies                              1998             937     Duplicate Posting
 Consultative Examination              1999          23,508     Math Errors
 Employee Travel                       1999           6,024     Credit Posted as Expense
 Supplies                              1999               20    Math Error
 Payroll                               1999               77    Uncorrected Estimates
 Payroll                               2000          58,102     Uncorrected Estimates
 Total Unallowable Direct
 Disbursements                                      $89,084

PR-DDP determined indirect costs by multiplying an agreed-upon rate by allowable
direct costs. We calculated the unallowable indirect costs by taking the difference
between the PR-DDP total indirect cost obligations claimed and the amount we
calculated as total allowable indirect costs for each FY. The differences are illustrated
below.


Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                         4
     Indirect Cost Obligations Claimed, Allowable, and Unallowable and Illustration
        of Unallowable Amounts by Disbursements and Unliquidated Obligations
                    as of December 30, 2001 for FYs 1998 through 2000
                PR-DDP         Allowable  Unallowable                     Unallowable
              Indirect Cost Indirect Cost    Indirect     Unallowable     Indirect Cost
     Fiscal    Obligations    Obligations      Cost       Indirect Cost   Unliquidated
      Year       Claimed       Per Audit   Obligations Disbursements Obligations
      1998      $1,310,286    $1,309,781           $505             $505             $0
      1999       1,503,733     1,502,508          1,225                 0         1,225
      2000       1,534,287     1,522,794        11,493             8,673          2,820
      Total                                    $13,223            $9,178        $4,045

As of December 30, 2001, PR-DDP had not requested reimbursement for all of its
indirect costs. Accordingly, only $9,178 of the $13,223 in unallowable indirect costs
were represented as program disbursements. The $4,045 difference represented an
unliquidated obligation. Therefore, SSA should recover the $9,178 of unallowable
indirect costs claimed, and PR-DDP should reduce the unliquidated obligations by
$4,045 for the balance of the unallowable indirect costs. Appendix B provides a
detailed description of the unallowable direct and indirect costs.

FISCAL YEAR PAYMENTS
This finding was deleted from the report after considering Agency Comments to our
draft report.

ACCOUNTING PROCESSES
One of the States’ basic responsibilities is to comply with regulations, rulings and other
written guidelines, including standards established by SSA, that apply to the State in
performing disability determinations.4 States must also adequately document
accounting records, which are subject to generally accepted accounting principles.5
PR-DDP’s accounting records generally supported the SSA-4513s submitted to SSA;
however, they did not agree with the PR-DF records. Additionally, according to the
PR-DDP Fiscal Manager, the two sets of records had not been reconciled. For
FY 1998, the PR-DDP reflected $440,353 less than the PR-DF. For FYs 1999
and 2000, the PR-DDP reflected $210,473 and $193,506 more than the PR-DF,
respectively.




4
    POMS DI 39501.020(B)(5).
5
    OMB Circular A-87, Attachment A, sections (C)(1)(g), (C)(1)(j) (as amended August 29, 1997).



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                5
Many of the differences
occurred because                       Differences Between PR-DDP and
PR-DDP recorded                            PR-DF Accounting Records
different FYs on some
vouchers than it recorded                    FYs 1998 through 2000
in its own records. The
vouchers are sent to         $14,000,000
PR-DF for processing and
payment while the            $13,500,000
PR-DDP uses its records
to complete the SSA-4513     $13,000,000
reports to report program
obligations to SSA. We       $12,500,000
also noted that reconciling
the two sets of records      $12,000,000
was difficult because,
while the PR-DF used a       $11,500,000
standard chart of accounts                    FY 1998      FY 1999        FY 2000
to categorize the                PR-DDP     $12,438,283  $12,955,976    $13,542,408
transactions, the PR-DDP         PR-DF      $12,878,636  $12,745,503    $13,348,902
recorded transactions to
match the line items in the
SSA-4513, and the two categories for the two methods used did not agree. Further, the
PR-DDP’s manual accounting process lacked an adequate audit trail or review process
that would minimize mathematical and posting errors.

UNLIQUIDATED OBLIGATIONS
The PR-DDP did not ensure that $100,000 of unliquidated obligations on the SSA-4513
reports were valid and did not promptly resolve its unliquidated obligations. The
PR-DDP continued to report FY 1999 and 2000 fund balance amounts as unliquidated
obligations through December 30, 2001, the date of the most recent SSA-4513. The
unliquidated obligations reported for these years are as follows.

                Unliquidated Obligations Reported in the SSA-4513s
                             as of December 30, 2001
     Reporting Item                       FY 1998       FY 1999     FY 2000
     Indirect Costs                            $0      $163,131      $2,820
     Other                                      0             0     100,000
     Total Unliquidated Obligations            $0      $163,131    $102,820

As reported previously, $4,045 in unliquidated indirect cost obligations should be
deobligated as a result of unallowable indirect costs during the applicable years (see
section entitled, UNALLOWABLE COSTS). Also, unliquidated obligations totaling



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                      6
$100,000 for FY 2000 were not supported by documents or records to show that a valid
obligation existed. POMS guidelines state that “Valid unliquidated obligations should be
supported by documents/records that describe the nature of the obligations and support
the amounts recorded. . . . State agencies should review unliquidated obligations at
least once each month to cancel those no longer valid . . . ."6 As of December 30, 2001,
the PR-DDP reported for FY 2000, $100,000 in Unliquidated Obligations as follows:

·     $45,000 listed as “EDP Maintenance.” The PR-DDP did not provide us
      documentation to show the maintenance had been performed.
·     $30,000 listed under “Equipment Purchases.” PR-DDP did not provide us with
      documentation to substantiate this obligation. The PR-DDP staff stated it was
      removing this item from the list of unliquidated obligations.
·     $25,000 listed as “Miscellaneous.” The PR-DDP did not receive authorization to
      expend these funds during FY 2000 and it had not issued a purchase order.
      Therefore, it was not a valid obligation. The PR-DDP stated it would remove this
      item from its report of unliquidated obligations.

States are required to use funds solely for program use, and any unused money is to be
returned to Treasury.7 Because fund balances were carried as unliquidated obligations,
obligation authority was not released or made available for other Federal needs.

CASH MANAGEMENT
The PR-DF did not exercise sound fiscal management practices in evaluating its cash
needs for the PR-DDP program. Consequently, cumulative disbursements consistently
exceeded the amount of SSA funds requested. Our analysis of the ASAP system
reports disclosed that the PR-DDP’s cumulative disbursements exceeded funds
requested throughout each quarter of each FY. The shortage of funds ranged from
$263,312 during the first quarter of FY 1998 to as much as $4,945,928 in the first
quarter of FY 2000 (FY 1999 funds).

According to PR-DF accounting staff, the State’s bank could not match information for
some checks with the appropriate grant number information provided by the State’s
Treasury Department. In such cases, the check amounts were not added to the
program cost total that served as the basis for the daily request for Federal funds.
Therefore, the requests for funds were less than the actual disbursements.

Because the State consistently had a cash deficiency, it effectively paid for program
costs until it properly identified its cash deficiencies for a given FY and made the
appropriate request for Federal funds (see related Single Audit Finding Numbers 97-93
and 99-72 in Appendix A).


6
    POMS DI 39506.203(A).
7
    The Social Security Act, Title II, §221, 42 U.S.C. §421 (f) (2002).


Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                      7
COMPENSATORY TIME
PR-DDP did not comply with the State policy requiring the use of time off in the form of
compensatory time for extra hours worked.8 PR-DDP treatment of extra hours worked
was subject to State policy because Federal regulations specify that costs charged
should be consistent with policies that apply uniformly to both Federal awards and other
activities of the governmental unit.9
PR-DDP employees earned, and were paid
                                                     Total Paid for DDP Extra Hours
for, one and a half hours of compensatory
                                                    Worked Including Fringe Benefit
time for every extra hour worked. While the
                                                         Amounts by Fiscal Year
State allowed its employees to work extra
hours, it required them to use the                     Year                     Amount
compensatory time as time off.
                                                    FY 1998                    $220,618
Contrary to State policy, PR-DDP paid its           FY 1999                     208,118
employees for all of the extra hours worked.
Therefore, the PR-DDP employees enjoyed             FY 2000                      53,803
a benefit not available to other State              Total                      $482,539
employees. As such, the costs charged did
not meet the criteria established by Federal regulations for costs to be allowable.
PR-DDP management believed they had an exemption from the State policy. However,
the latest request for exemption expired in September 1994. PR-DDP was unable to
provide documentation to substantiate exemptions beyond 1994. Consequently, for
FYs 1998 through 2000, PR-DDP improperly paid $482,539 in salaries and fringe
benefits for extra hours worked.

Factors used to determine whether costs are allowable include whether they are
(1) necessary and reasonable for the proper and efficient performance and
administration of Federal awards and (2) consistent with policies, regulations, and
procedures that apply uniformly to both Federal awards and other activities of the
governmental unit. The question of reasonableness is considered particularly important
when governmental units or components are predominately federally funded.10

In an April 30, 2002 letter, the Secretary of the Department of Family reminded the
PR-DDP that extra hours worked were to be compensated as compensatory time in
accordance with State policy and also prohibited working extra hours in excess of
240 accumulated hours.


8
    Commonwealth of Puerto Rico, Department of Social Services, Administrative Order
     Num. 87-001(2)(B)(a),(2)(C)(b),(April 2, 1987).
9
    OMB Circular A-87, Attachment A, sections (C)(1)(a), (C)(1)(e) (as amended August 29, 1997).
10
     OMB Circular A-87, Attachment A, section (C)(2) (as amended August 29, 1997).



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                8
CLASSIFICATION OF DIRECT AND INDIRECT COSTS
The PR-DDP reclassified selected payroll costs from direct to indirect costs, which did
not comply with Federal regulations concerning classification of costs. According to
Federal regulations, direct costs are those that can be identified specifically with a
particular final cost objective.11 A “cost objective" is defined as a function,
organizational subdivision, contract, grant, or other activity for which cost data are
needed and for which costs are incurred.12 Typical direct costs chargeable to Federal
awards include compensating employees for the time devoted and identified specifically
to performing those awards. Indirect costs are those incurred for a common or joint
purpose benefiting more than one cost objective, and not readily assignable to the cost
objectives specifically benefited, without effort disproportionate to the results achieved.13

Per discussions with the New York Regional Office and PR-DF personnel, employees’
salaries were reclassified from direct to indirect costs

·      because the employees were working in functions that they considered parent
       agency functions (such as paying vouchers) and did not directly impact the PR-DDP
       case processing workload (that is, rendering disability decisions); and

·      to avoid the negative effects on the measurement of PR-DDP’s productivity in terms
       of Productivity Per Work-Year (PPWY).14

In our opinion, neither one of these reasons justified the reclassification of costs. The
employees whose salaries were reclassified from direct costs to indirect costs were
specifically identifiable to the PR-DDP (the cost objective) and did not benefit other
State programs. Accordingly, they were initially appropriately classified as direct costs.

In correspondence to the PR-DDP dated October 24, 2001, SSA stated it was
amenable to converting indirect staff to direct staff in view of the PR-DDP’s “difficulties
involved” in keeping staff in the indirect cost categories. The correspondence did not
elaborate on the nature of the difficulties involved. We believe the conversion is
appropriate; however, the reasons for doing so should be to comply with



11
     OMB Circular A-87, Attachment A, section (E)(1) (as amended August 29, 1997).
12
     OMB Circular A-87, Attachment A, section (B)(11) (as amended August 29, 1997).
13
     OMB Circular A-87, Attachment A, section (F)(1) (as amended August 29, 1997).
14
     Productivity is a measure of the number of cases disposed in relation to the resources used to dispose
     those cases. By classifying costs as indirect costs, the resources used by the PR-DDP are reduced
     and the productivity measure is improved. PPWY, as defined in POMS DI 39503.230 = Workload
     Processed (number of case dispositions) / Resources Used (Amount of productive time provided by
     one employee working full time for 1 year exclusive of Nonwork Time).



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                           9
applicable cost principles for determining allowable costs. The correspondence to
PR-DDP indicated that SSA and PR-DDP planned to complete the conversion of
indirect staff to direct staff by the middle of FY 2003.

CONSULTATIVE EXAMINATION AUTHORIZATION PROCESS AND FEE
SCHEDULES
The consultative examination (CE) authorization process lacked adequate controls to
ensure payments were properly authorized. Specifically, the PR-DDP used rubber
stamps to approve CE vouchers; the fiscal unit had access to and used a rubber stamp
for examiner signatures; and some acting examiners signed the name of the absent
examiner in place of their own name and did not identify their acting capacity. These
practices weakened the approval and certification process for CE services and exposed
the PR-DDP to the risk that unauthorized services could be paid. In addition, the fiscal
unit’s use of the rubber stamp circumvented the segregation of duties process
necessary in a well-designed system of internal controls. For FYs 1998 through 2000,
11, 13, and 18 percent, respectively, of a random sample of 100 transactions each year
had been signed with a rubber stamp. We did not quantify the number of transactions
improperly signed by an acting examiner. During our on-site review, the PR-DDP
Technical Director issued a formal memorandum via electronic mail directing staff on
the proper method for signing examiner certifications.

The PR-DDP also did not review and update its fee schedules annually. The last
complete review was in 1995, and some CE fees dated back to 1991 and 1993;
however, PR-DDP was making efforts to conduct a full-scale review of its rates as of the
completion of our field work in May 2002. SSA guidelines to DDSs for monitoring and
maintaining fee schedules are discretionary; however, without a proper, ongoing
assessment of fee schedules, the PR-DDP may be paying CE fees that exceed the
highest rate paid by Federal or other agencies within the State.15 In such cases, the
PR-DDP could be overpaying for the contracted services. In other cases, the PR-DDP
could be paying less than the rates paid by Federal or State agencies. In these cases,
the lower rates paid could be detrimental to obtaining needed CE services.

UNRESOLVED SINGLE AUDIT FINDINGS
We reviewed documentation provided by the PR-DF and the PR-DDP in response to
compliance issues and questioned costs cited in the Deloitte & Touche LLP Single Audit
Reports for the PR-DF for FYs 1997 through 1999. The Single Audit Report for
FY 2000 had not been issued as of the end of our field work. Based on our review of
supporting documentation and discussions with PR-DF and PR-DDP staff, appropriate
corrective action was not taken on the following single audit findings.



15
     POMS DI 39545.410.



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                   10
·     Finding numbers 97-91, FY 1997 and 98-77, FY 1998: PR-DDP’s physical inventory
      needs to be reconciled with accounting records. Our review disclosed that
      improvements were still needed in physical inventory. The PR-DDP had not
      implemented procedures to reconcile physical inventory with the accounting records.
      In testing the completeness of the inventory records, we identified 16 of 106 items
      tested that were not recorded on the inventory listing. Additionally, PR-DDP’s
      inventory database lacked essential information required by POMS, such as
      inventory serial numbers, dates of purchases, and sources of funds used.16

·     Finding number 98-1, FY 1998: The Department has significant deficiencies in its
      internal control structure, accounting and financial management systems, budgetary
      controls and financial reporting practices. Our audit disclosed similar findings.

·     Finding number 99-73, FY 1999: The Department filed Federal Financial Status
      Reports that did not agree with the general ledger. Our review disclosed that
      adequate measures were not taken to reconcile PR-DDP and PR-DF accounting
      records.

We believe the PR-DDP should resolve the remaining deficiencies identified in the
Single Audit Reports. Our comments on the specific findings noted in the Single Audit
reports are included at Appendix A.




16
     POMS DI 39530.020(B).


Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                     11
                       Conclusions and
                             Recommendations
Based on this audit, costs the PR-DDP claimed on the SSA-4513s for FYs 1998 through
2000 were generally allowable and allocable. SSA funds requested and received did
not exceed total expenditures for each FY. However, we found internal control
deficiencies with the accounting and reporting of administrative costs that resulted in
program overcharges.

We recommend that SSA instruct the PR-DDP through the Secretary of the Department
to:

1. Refund $89,084 for unallowable direct costs and $9,178 for unallowable indirect
   costs.

2. Deleted. See the OIG response to the Agency comments.

3. Improve the accounting system used to record and report PR-DDP costs including
   (a) automating the accounting process, (b) reconciling its records with PR-DF each
   month, and (c) reporting expenditures in the correct FY.

4. Deobligate $100,000 reported as unliquidated obligations that were not supported by
   documentation validating the costs and $4,045 for unallowable indirect costs that
   were included as part of the unliquidated obligations.

5. Report only valid obligations as unliquidated obligations on the SSA-4513s.

6. Establish cash management procedures that allow for accurate determination of
   immediate cash needs.

7. Comply with State policy governing compensatory time.

8. Charge PR-DDP employees as direct costs and discontinue the practice of switching
   direct costs to indirect costs to improve productivity statistics.

9. Strengthen internal controls over the CE approval process including
   (a) discontinuing the use of rubber stamps, (b) ensuring that examiners conduct
   proper reviews of CE documents and use their own hand written signature to certify
   their reviews, and (c) conducting periodic reviews of CE fee schedules in
   accordance with discretionary guidelines at POMS DI 39545.410.

10. Reduce the obligational authority balances for FYs 1998 through 2000.



Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                  12
11. Take corrective action on the three unresolved single audit findings for 1997-1999.

AGENCY COMMENTS
SSA agreed with all of the conclusions and recommendations in the draft report except
for recommendation number 2 concerning reducing FY 2000 disbursements by $8,812
for FY 2001 expenditures that were incorrectly reported on the SSA-4513 for FY 2000.
SSA stated that our recommendation conflicts with POMS DI 39506 because POMS
gives a broader interpretation of OMB Circular A-87, Attachment A, section (C)(3)(a).
See Appendix C for the full text of SSA’s comments.

OIG RESPONSE
SSA changed its policy to allow States to obligate funds no later than six months after
the close of the Federal FY. Previously, States were required to obligate funds made
available by SSA no later than the close of the Federal FY. SSA stipulated that all
obligations for goods or services made after the close of the Federal FY to which the
funds relate must be based on a bona fide need for the goods or services that existed in
the closed Federal FY. Also, the new policy did not change the requirement that
funding authorization had to be made by the end of the FY.

We consider SSA’s response as adequate and, accordingly, deleted recommendation
number 2 from the report.




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                       13
                                          Appendices




Audit of the Administrative Costs Claimed by the Puerto Rico PR-DDP (A-06-02-22072)
                                                                        Appendix A

Single Audit Findings
Results of our review of the Puerto Rico Department of Family (PR-DF) and the Puerto
Rico Disability Determination Program (PR-DDP) documentation in response to findings
cited in the Deloitte & Touche LLP Single Audit Reports for Fiscal Years (FY) 1997
through 1999.

                    FY 1997 Single Audit Report findings for PR-DDP

Finding       Note: The Agency did not submit a corrective action plan for FY 1997
Number        findings noted in the Single Audit Report.

    97-91     Single Audit Finding: The PR-DDP is not reconciling physical inventory
              results with the accounting records.

              Office of the Inspector General (OIG) Comment & Conclusion:
              PR-DDP had not implement procedures to reconcile the physical inventory
              with the accounting records. Additional corrective action is needed. We
              selected a sample of transactions to test against the April 26, 2002 physical
              inventory listing. We tested for existence of equipment; completeness of the
              inventory listing and reconciliation with accounting records; and compliance
              with Social Security Administration (SSA) inventory guidelines.1

              To test existence, we selected 27 equipment items from the accounting
              records and accounted for all 27 items. For completeness of the inventory
              listing, we selected 106 equipment items from the accounting records
              purchased during FYs 1998 through 2000 and determined that none of the
              items had been reconciled with the accounting records. For compliance with
              SSA guidelines, we noted the inventory database lacked three essential
              fields required by the guidelines; inventory serial numbers, date of purchase,
              and source of funds used.


    97-92     Single Audit Finding: An employee was paid $725 more than the amount
              authorized.

              OIG Comment & Conclusion: The PR-DDP provided documentation to
              support the payment. The payment was noted as a retroactive salary
              payment based on an approved payroll adjustment.



1
    (POMS) DI 39530.020


Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                      A-1
 97-93     Single Audit Finding: A request for Federal-funds for $939,771 was made
           without supporting documentation.

           OIG Comment & Conclusion: The PR-DF provided documentation to
           support the request. The PR-DF worksheet illustrated that this amount was
           requested to recover disbursements relating to FY 1994 and corrected a
           funds request deficiency for FY 1994 (also see the OIG finding entitled,
           CASH MANAGEMENT).

 97-94     Single Audit Finding: Expenditures for $753,217 could not be supported.
           Area: Allowable Costs/Cost Principles

           OIG Comment & Conclusion: The PR-DDP provided us the appropriate
           documentation to support these expenditures.



                  FY 1998 Single Audit Report findings for PR-DDP
Finding
Number
  98-1     Single Audit Finding: The Department has significant deficiencies in its
           internal control structure, accounting and financial management systems,
           budgetary controls and financial reporting practices.

           Agency Response in Corrective Action Plan: Disagreed with
           recommendation.

           OIG Response: We concur with the reported finding. The Department
           continued to have internal control deficiencies as noted in the above finding.
           Our audit of PR-DDP expenditures disclosed internal control weaknesses
           with the authorizing, recording, reporting, and procuring functions, and with
           the cash management process. These deficiencies are discussed within the
           body of our report.

 98-77     Single Audit Finding: The Department did not perform a physical inventory
           over property and equipment.

           Agency Response in Corrective Action Plan: The agency stated the
           Disability Program performs an annual physical inventory but that in 1997
           the floppy disc containing the inventory list was damaged.

           OIG Comment: Additional corrective action is needed. This is a repeat
           finding from FY 1997. See OIG comments for finding number 97-91.




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                    A-2
 98-78     Single Audit Finding: Expenditures for $170,768 could not be supported.

           Agency Response in Corrective Action Plan: Disagreed with
           recommendation.

           OIG Comment & Conclusion: The PR-DF provided us with the appropriate
           documentation to support these expenditures.



                  FY 1999 Single Audit Report findings for PR-DDP

Finding
Number
 99-71     Single Audit Finding: The Department did not perform fiscal evaluations
           before disbursing funds. Program expenditures totaling $172,354 were
           questioned.

           Agency Response in Corrective Action Plan: Disagreed with
           recommendation.

           OIG Comment & Conclusion: The PR-DDP provided us the appropriate
           documentation to support these expenditures.

 99-72     Single Audit Finding: The Department could not locate evidence to support
           federal funds requests totaling $4,214,001.

           Agency Response in Corrective Action Plan: Disagreed with
           recommendation.

           OIG Comment: This finding involved two requests for Federal funds. The
           PR-DF provided us documentation to support the two requests.

 99-73     Single Audit Finding: The Department filed Federal Financial Status
           Reports that did not agree with the general ledger. It noted cumulative
           differences totaling $899,764 for periods from 1995 through 1999.

           Agency Response in Corrective Action Plan: Agency agreed that
           financial reconciliations are not up to date and stated that coordination
           between the Program and Department officials will be scheduled to solve the
           issue. The due date for completion was set for January 31, 2002.

           OIG Comment: The Agency did not meet its deadline for resolving the
           issue. At the time of our review, the Program and Department officials had
           not taken adequate measures to reconcile their respective accounting
           records. Thus, this finding continues to be uncorrected (see OIG audit
           finding entitled, ACCOUNTING PROCESSES).




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                  A-3
                                                                         Appendix B

Questioned Costs
  SUMMARY SCHEDULE OF TOTAL OBLIGATIONS REPORTED, QUESTIONED,
    AND ALLOWED FOR THE PUERTO RICO DISABILITY DETERMINATION
            PROGRAM, FISCAL YEARS 1998, 1999, AND 2000

                    Obligations Per                         Unallowable
                      SSA-4513           Unallowable        Unliquidated
                      Report at         Disbursements       Obligations         Allowable
Fiscal Year (FY)       12/31/01            Per Audit         Per Audit         Obligations
FY 1998                 $12,438,289              $1,858                  $0    $12,436,431
FY 1999                 $13,119,113             $29,629               $1,225   $13,088,259
FY 2000                 $13,645,223             $66,775          $102,820      $13,475,628
Totals                  $39,202,625             $98,262          $104,045      $39,000,318




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                     B-1
       SCHEDULE OF TOTAL OBLIGATIONS REPORTED, QUESTIONED, AND
     ALLOWED FOR THE PUERTO RICO DISABILITY DETERMINATION PROGRAM
              OCTOBER 1, 1997 THROUGH SEPTEMBER 30, 1998

                                 Obligations                           Unallowable
                                Per SSA-4513        Unallowable        Unliquidated
                                  Report at        Disbursements       Obligations         Allowable
                                  12/31/01            Per Audit         Per Audit         Obligations
Personnel                         $5,897,221                  $4161                 $0      $5,896,805

Medical                           $3,776,431                      $0                $0      $3,776,431

Other                             $1,454,351                  $9372                 $0      $1,453,414

Indirect Costs                    $1,310,286                  $5053                 $0      $1,309,781

Totals                           $12,438,289                $1,858                  $0     $12,436,431

Obligational Authority                                                                     $12,438,289

Remaining
                                                                                                 $1,858
Obligational Authority


Table Notes:
1
    Math error of $416 in the Puerto Rico Disability Determination Program’s (PR-DDP) ledger, Medical
    Consultant cost category, posted in August 1998.
2
    The same cost item of $937 in PR-DDP’s ledger, Supplies category, was posted in January 1998 and
    again in February 1998.
3
    Indirect Cost Obligations claimed by PR-DDP:    $1,310,286
    Indirect Cost Obligations per Audit:            $1,309,781
    Total Unallowable indirect cost obligations:         $505




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                     B-2
       SCHEDULE OF TOTAL OBLIGATIONS REPORTED, QUESTIONED, AND
     ALLOWED FOR THE PUERTO RICO DISABILITY DETERMINATION PROGRAM
              OCTOBER 1, 1998 THROUGH SEPTEMBER 30, 1999

                                 Obligations                              Unallowable
                                Per SSA-4513         Unallowable          Unliquidated
                                  Report at         Disbursements         Obligations          Allowable
                                  12/31/01             Per Audit           Per Audit          Obligations
Personnel                          $6,061,793                     $771                 $0      $6,061,716

Medical                            $4,030,399              $23,5082                    $0      $4,006,891

Other                              $1,523,188                $6,0443                   $0      $1,517,144

Indirect Costs                     $1,503,733                      $0            $1,2254       $1,502,508

Totals                            $13,119,113                $29,629              $1,225     $13,088,259

Obligational Authority                                                                       $13,130,798

Remaining
                                                                                                   $42,539
Obligational Authority


Table Notes:
1
    Net differences in posting errors to PR-DDP’s ledger, Payroll category, resulting from use of estimates
    for quarters ending March 1999, June 1999 and September 1999.
2
    Math errors in the PR-DDP’s ledger, consultative examination category, as follows: $3,000
    overstatement error in December 1998 and $20,508 overstatement error in February 1999.
3
    Reimbursement amount of $3,012 in PR-DDP’s ledger, Travel category, was posted as an expense
    resulting in an overcharge of $6,024. A math error of $20 was made in the supplies category.
4
    Indirect Cost Obligations claimed by PR-DDP:     $1,503,733
    Indirect Cost Obligations per Audit:             $1,502,508
    Total Unallowable indirect cost obligations:         $1,225




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                      B-3
       SCHEDULE OF TOTAL OBLIGATIONS REPORTED, QUESTIONED, AND
     ALLOWED FOR THE PUERTO RICO DISABILITY DETERMINATION PROGRAM
              OCTOBER 1, 1999 THROUGH SEPTEMBER 30, 2000

                                   Obligations                              Unallowable
                                  Per SSA-4513         Unallowable          Unliquidated
                                    Report at         Disbursements         Obligations          Allowable
                                    12/31/01             Per Audit           Per Audit          Obligations
 Personnel                           $6,457,214               $58,1021                   $0      $6,399,112

 Medical                             $4,090,922                       $0                 $0      $4,090,922

 Other                               $1,562,800                       $0       $100,0002         $1,462,800

 Indirect Costs                      $1,534,287                $8,6733             $2,820        $1,522,794

 Totals                            $13,645,223                 $66,775          $102,820       $13,475,628

 Obligational Authority                                                                        $13,680,250

 Remaining
                                                                                                   $204,622
 Obligational Authority


Table Notes:
 1
     Estimated amount used was not adjusted to actual for quarters ending December 1999, June 2000 and
     September 2000.
 2
     Unliquidated obligations, totaling $100,000, were not valid: See page 7 of this report for explanation of
     invalid obligations.

 3
     Indirect Cost Obligations claimed by PR-DDP:      $1,534,287
     Indirect Cost Obligations per Audit:              $1,522,794
     Total Unallowable indirect cost obligations:         $11,493




 Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                                        B-4
                                                                         Appendix C

Agency Comments




Audit of the Administrative Costs Claimed by the Puerto Rico PR-DDP (A-06-02-22072)
                              SOCIAL SECURITY

MEMORANDUM                                                              Refer To: S2D2G5

Date:      December 17, 2002

To:        Steven L. Schaeffer
           Assistant Inspector General
           for Audit

From:      Regional Commissioner
           New York

Subject:   Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
           Determination Program (A-06-02-22072)


We welcome the opportunity to review the draft report representing the results of your audit of the
administrative costs claimed by the Commonwealth of Puerto Rico (PR) Disability Determination
Program (DDP) for fiscal years (FYs) 1998 through 2000 and also including the outcomes on
findings reported in the FY 1997 through 1999 Single Audit Reports for PR DDP. We thank you for
conducting this audit at our request as we are now in a much better position to instruct the PR DDP
through the Secretary of the Department in those areas that are still deficient.

Based on your findings we agree with all of the conclusions and recommendations in the draft report
with the exception of number 2. Recommendation number 2, which requires that FY 2000
disbursements be reduced by $8,812 for FY 2001 expenditures that were incorrectly reported on the
SSA-4513 for FY 2000 conflicts with the Program Operations Manual System (POMS) Disability
(DI) 39506. POMS DI 39506 gives a broader interpretation of the Office of Management and
Budget (OMB) Circular A-87, Attachment A, section (C) (3) (a) than do the auditors. This issue
has been covered in staff to staff discussions between Paul Davila, Acting Director, Southern Audit
Division and Gene Purk, Teamleader, Center for Disability.

If members of your staff have any questions on this matter they should be directed to Gene Purk,
(212) 264-7283 in the Center for Disability Programs.



                                                    / s /


                                            Beatrice M. Disman




Administrative Costs Claimed by the Puerto Rico DDP (A-06-02-22072)                          C-1
                                                                         Appendix D

OIG Contact and Staff Acknowledgments
OIG Contact
   Paul Davila, Deputy Director, Dallas, Texas (214) 767-6317

Acknowledgments
In addition to those named above:

   Elizabeth Juarez, Auditor

   Joshua M. Campos, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-02-22072.




Audit of the Administrative Costs Claimed by the Puerto Rico PR-DDP (A-06-02-22072)
                   Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                             Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                  Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
